   DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                       Washington, D.C. 20201




January 10, 2011

TO:           Yolanda J. Butler, Ph.D.
              Acting Director
              Office of Community Services
              Administration for Children and Families


FROM:         /Lori S. Pilcher/
              Assistant Inspector General for Grants, Internal Activities,
                and Information Technology Audits


SUBJECT:      Results of Limited Scope Review at Capital Area Community Action Agency,
              Inc. (A-04-10-01083)


The attached final report provides the results of our limited scope review at Capital Area
Community Action Agency, Inc. In accordance with the Recovery Act, the Office of Inspector
General (OIG) will provide oversight of covered funds to prevent fraud, waste, and abuse.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-04-10-01083 in all correspondence.


Attachment
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




  RESULTS OF LIMITED SCOPE
   REVIEW AT CAPITAL AREA
COMMUNITY ACTION AGENCY, INC.




                       Daniel R. Levinson
                        Inspector General

                         January 2011
                         A-04-10-01083
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998,
P.L. No. 105-285 (the CSBG Act), to provide funds to alleviate the causes and conditions of
poverty in communities. Within the U.S. Department of Health & Human Services, the
Administration for Children and Families (ACF), Office of Community Services administers the
CSBG program. The CSBG program funds a State-administered network of more than 1,000
local Community Action Agencies (CAAs) that create, coordinate, and deliver programs and
services to low-income Americans. The CAAs provide services and activities addressing
employment, education, housing, nutrition, emergency services, health, and better use of
available income.

Under The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion for the CSBG program for states to alleviate
the causes and conditions of poverty in communities. CSBG Recovery Act funds are distributed
to CAAs using the existing statutory formula.

Florida’s Department of Community Affairs (DCA) acts as the lead agency for purposes of
carrying out State activities for the CSBG program. DCA is responsible for approving the
State’s CAA Recovery Act grant applications and monitoring the CAAs for compliance with
program regulations. DCA was awarded with an additional $29,060,460 in Recovery Act funds
for the State of Florida’s CSBG program.

Capital Area Community Action Agency, Inc. (Capital Area), a private, nonprofit organization,
provides services to households throughout Leon, Calhoun, Jefferson, Franklin, Gadsden, Gulf,
and Liberty counties in Florida. During fiscal year (FY) 2009, DCA awarded Capital Area
$534,852 in CSBG grant funds and a Recovery Act grant award totaling $872,912. For FY
2009, Capital Area received total Federal grant awards of $6,535,073.

OBJECTIVE

Our objective was to assess Capital Area’s financial viability, capacity to manage and account
for Federal funds, and capability to operate the CSBG program in accordance with Federal
regulations.

SUMMARY OF FINDINGS

Based on our assessment, Capital Area is financially viable and has the capacity to manage and
account for Federal funds and is capable of operating the CSBG program in accordance with
Federal regulations. However, we noted weaknesses related to: inventory records, ability to
spend funds timely, and certifications that principals, including Board of Directors members, are
suitable for service.



                                                i
RECOMMENDATIONS

We recommend that DCA consider the information presented in this report in assessing Capital
Area’s ability to operate the CSBG program in accordance with Federal regulations.

CAPITAL AREA COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments to our draft report, Capital Area disagreed with our findings. The complete
text of Capital Area’s comments is included as the Appendix.

The Executive Director stated that Capital Area kept its inventory records in an excel file and
that all issues left undone by the former Inventory Manager were corrected immediately.
However, Capital Area did not provide the inventory records we requested and it did not provide
evidence that the Agency had conducted an inventory.

Capital Area confirmed that a large percentage of funds were unexpended at the time of our site
review. However, Capital Area estimates it will expend all but 9 percent of the funds by the
close of the grant period.

Capital Area stated that it was not aware of the requirement to complete criminal background
checks on all of its Board members. However, in the CSBG Recovery Act contract which was
signed by the Executive Director, the State required certification that Capital Area’s principals
had not been convicted of or had a civil judgment rendered against it (them) for commission of
fraud or a criminal offense regarding a public transaction.

Accordingly, we maintain that our findings are valid.




                                                 ii
                                                 TABLE OF CONTENTS
                                                                                                                           Page

INTRODUCTION ..........................................................................................................1

          BACKGROUND .....................................................................................................1
              Community Services Block Grant Program ................................................1
              Florida’s Department of Community Affairs ..............................................1
              Capital Area Community Action Agency, Inc .............................................1
              Requirements for Federal Grantees .............................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope ..........................................................................................................2
               Methodology ................................................................................................2

FINDINGS AND RECOMMENDATIONS ....................................................................3

         INVENTORY RECORDS .......................................................................................3

         INABILITY TO EXPEND FUNDS ........................................................................3

         CERTIFICATION ...................................................................................................3

         RECOMMENDATIONS .........................................................................................4

          CAPITAL AREA COMMENTS AND OFFICE OF INSPECTOR GENERAL
           RESPONSE ..........................................................................................................4
               Inventory Records ........................................................................................4
               Inability to Expend Funds ............................................................................4
               Certification .................................................................................................4




                                                                   iii
                                       INTRODUCTION

BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998,
P.L. No. 105-285 (the CSBG Act), to provide funds to alleviate the causes and conditions of
poverty in communities. Within the U.S. Department of Health & Human Services, the
Administration for Children and Families (ACF), Office of Community Services administers the
CSBG program. The CSBG program funds a State-administered network of more than 1,000
local Community Action Agencies (CAAs) that create, coordinate, and deliver programs and
services to low-income Americans. The CAAs provide services and activities addressing
employment, education, housing, nutrition, emergency services, health, and better use of
available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion for the CSBG program for States to alleviate
the causes and conditions of poverty in communities. CSBG Recovery Act funds are distributed
to CAAs using the existing statutory formula.

Florida’s Department of Community Affairs

Florida’s Department of Community Affairs (DCA) acts as the lead agency for purposes of
carrying out State activities for the CSBG program. DCA is responsible for approving the
State’s CAA Recovery Act grant applications and monitoring the CAAs for compliance with
program regulations. DCA was awarded with an additional $29,060,460 in Recovery Act funds
for the State of Florida’s CSBG program.

Capital Area Community Action Agency, Inc.

Capital Area Community Action Agency, Inc. (Capital Area), a private, nonprofit organization,
provides services to households throughout Leon, Calhoun, Jefferson, Franklin, Gadsden, Gulf,
and Liberty counties in Florida. During fiscal year (FY) 2009, DCA awarded Capital Area
$534,852 in CSBG grant funds and a Recovery Act grant award totaling $872,912. For FY
2009, Capital Area received total Federal grant awards of $6,535,073.

Requirements for Federal Grantees

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
reporting of grant related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs. In addition, grantees must establish written procurement
procedures. Grantees are also required to maintain inventory control system and take periodic
physical inventory of grant-related equipment. In addition, pursuant to 45 CFR § 74.27, the


                                                1
allowability of costs incurred by nonprofit organizations is determined in accordance with the
provisions of Office of Management and Budget Circular A-122, Cost Principles for Nonprofit
Organizations. The CSBG Act establishes the CSBG program and sets the requirements and
guidelines for CSBG funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess Capital Area’s financial viability, capacity to manage and account
for Federal funds, and capability to operate the CSBG program in accordance with Federal
regulations.

Scope

We conducted a limited review of Capital Area’s financial viability, financial management
system, and related policies and procedures. We did not perform an overall assessment of
Capital Area’s internal control structure. We reviewed only the internal controls that pertained
directly to our objectives. Our review period was July 1, 2009, through September 30, 2010.

We conducted our fieldwork at Capital Area’s offices in Tallahassee, Florida, during June 2010.

Methodology

To accomplish our objective, we:

   •    confirmed that Capital Area is not excluded from receiving Federal funds;

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed Capital Area’s application and implementation of the grant awards for the
        Recovery Act funding;

   •    reviewed Capital Area’s audited financial statements and supporting documentation for
        the period of January 1, 2006, through December 31, 2008;

   •    reviewed the findings related to the most recent State review;

   •    reviewed Capital Area policies and procedures related to the CSBG program;

   •    reviewed Capital Area’s bylaws, minutes from the Board of Directors’ (Board) meetings,
        composition of the Board, and organizational chart; and

   •    performed audit steps to assess the adequacy of Capital Area’s current financial systems.



                                                2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                      FINDINGS AND RECOMMENDATIONS

Based on our assessment, Capital Area is financially viable, has the capacity to manage and
account for Federal funds, and is capable of operating the CSBG program in accordance with
Federal regulations. However, we noted weaknesses related to: inventory records, ability to
spend funds timely, and certifications that principals, including Board members, are suitable for
service.

INVENTORY RECORDS

Pursuant to 45 CFR part 74, Capital Area’s policy requires an annual inventory of assets. In
addition, the Inventory Manager is required to maintain a detailed inventory record. However,
Capital Area was unable to provide inventory records for any inventory other than the recently
purchased Recovery Act inventory because the employee who maintained the inventory records
was terminated, and the records were misplaced. Capital Area stated that it is in the process of
reconstructing its inventory records and that an outside audit firm has inventory records for
assets exceeding $5,000. Without annual inventories and current inventory records, Capital Area
risks inventory being lost or stolen.

INABILITY TO EXPEND FUNDS

Pursuant to the Recovery Act (P.L. No. 111-5), the period of funds availability ends September
30, 2010. If CSBG Recovery Act funds are not spent by September 30, 2010, funds must be
returned to DCA, and intended recipients may not receive the services as envisioned in the
Recovery Act.

At the time of our fieldwork, Capital Area had been reimbursed for $331,161, or 38 percent of its
available funding of $872,912. Capital Area had until September 30, 2010, to obligate the
$872,912 and until December 29, 2010, to expend it. The Executive Director stated that Capital
Area would do its best to expend all Recovery Act funds. However, she also stated that Capital
Area received its award 2 months after the contract’s effective date of July 1, 2009. She said that
the agency is normally underfunded, and she hoped that it would be granted an extended period
during which to use those funds. Capital Area has adequate controls to assure unexpended funds
are returned to the State.

CERTIFICATION

According to Federal regulations (2 CFR part 180), ACF required DCA to obtain a certification
that Capital Area and its principals had not, within a 3-year period preceding the proposal date,
been convicted of or had a civil judgment rendered against them for commission of fraud or a


                                                3
criminal offense in connection with obtaining or performing a public transaction. Federal
regulations require agencies to obtain this information from grantees and sub-grantees. (Capital
Area is a sub-grantee.) The agencies can obtain the information in a number of ways, but ACF
required the State to obtain a certification. Capital Area has obtained background checks for its
employees but not for its Board members because it did not consider its Board members to be
principals. If Capital Area does not obtain background checks for members of its Board, it could
be debarred from receiving Federal funding.

RECOMMENDATIONS

We recommend that DCA consider the information presented in this report in assessing Capital
Area’s ability to operate the CSBG program in accordance with Federal regulations.

CAPITAL AREA COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Capital Area disagreed with our findings. A summary
of Capital Area’s comments and our response to those comments follows. The complete text of
Capital Area’s comments is included as the Appendix.

Inventory Records

Capital Area acknowledged that it is required to maintain an annual inventory of assets and
stated that the mandated inventory is usually capitalized so their auditor has a copy on file for
depreciation purposes. Capital Area also stated they maintain their own records of the mandated
inventory in an excel file. Capital Area said the list was not provided to the OIG auditors, but
would have been if asked. Capital Area also stated it maintains inventory for items less than
$5,000and added that it had corrected any inventory issues related to the former Inventory
Manager who was terminated two years ago.

Capital Area’s response was vague when referring to the “mandated inventory”, never
specifically stating a current inventory was done during our audit period. Further, we requested
any and all inventory records and we were not provided any records or other evidence that the
Agency had conducted an inventory. Accordingly, we maintain that our finding is valid.

Inability to Spend Funds

Capital Area confirmed that a large percentage of funds was unexpended at the time of our site
review. However, Capital Area estimates it will expend all but 9 percent of the funds by the
close of the grant period.

Certification

Capital Area stated that it was not aware of the requirement to complete criminal background
checks on all of its Board members. The Executive Director stated that the State had never
required it or any other Florida CAA to complete criminal background checks on its Board
members and that DCA continues to research this issue with its legal counsel.


                                                4
The State is required by regulation to verify that its sub-recipients are not excluded or
disqualified from Federal awards. The State addressed this issue by requiring its recipients,
including Capital Area, to certify, by signing the agreement, that it and its principals are not
presently debarred, suspended, proposed for debarment, declared ineligible, or voluntarily
excluded from covered transactions by a Federal department or agency and that it and its
principals have not, within the previous 5 years, been convicted of or had a civil judgment
rendered against it (them) for commission of fraud or a criminal offense in connection with
obtaining, attempting to obtain, or performing a public transaction or contract under public
transaction.

Federal regulations (2 CFR § 180.995(b)) define a principal as “[a] consultant or other person,
whether or not employed by the participant or paid with Federal funds, who … [i]s in a position
to influence or control the use of [Federal] funds.”

Members of Capital Area’s Board of Directors are in a position to influence the use of Federal
funds. Because Capital Area does not require background checks on its Board members, there is
no certification that they have not been convicted of or had a civil judgment rendered against
them in connection with obtaining, attempting to obtain, or performing a public transaction. This
lack of certification could lead to Capital Area being debarred from receiving Federal funds.

Finally, Capital Area stated that the report should be updated to reflect a more accurate picture of
the Agency’s management of federal funds, and that the auditors should be required to do an exit
conference on site at the conclusion of their work,

Contrary to what Capital Area’s response implies, we provided Capital Area with the status of
the audit and explained our preliminary findings while on site. Further, we believe our findings
are valid; Capital Area provided no additional information to warrant any revisions to our report.




                                                  5
APPENDIX
                                                                                         Page 1 of3




 APPENDIX: CAPITAL AREA COMMUNITY ACTION AGENCY, INC. COMMENTS

                           Capital Area Community Action Agency, Inc 

                                       Tallahassee, Florida 

                                        November 3,2010 


               Response to Department of Health and Human Services Report 

                                 Number: A-04-10-01083 

                                      Submitted by 

                                 Dorothy Inman-Johnson 

                                   Executive Director 

Inventory Records

Pursuant to 45 CFR part 74, Capital Area's policy requires an annual inventory of assets. In
addition, the Inventory Manager is required to maintain a detailed inventory record. However,
Capital Area was unable to provide inventory records for any inventory other than the recently
purchased Recovery Act inventory because the employee who maintained the inventory records
was terminated and the record misplaced. Capital Area states that it in the process of
reconstructing its inventory records and that an outside audit firm has inventory records fro
assets exceeding $5,000. Without annual inventories and current inventory records, Capital Area
risks inventory being lost or stolen

Response:       As mentioned in the agency's Accounting policies and procedures manual,
Capital Area Community Action Agency, Inc is required to maintain an annual inventory of
assets. This consists of the mandated inventory for Federal grants for assets above $5,000 and
inventory of items less than $5000 with a useful life of more than one year and which is not
classified as supplies.

The mandated inventory is usually capitalized so our auditor has a copy. The audit firm
maintains it in its file for depreciation purposes. No inventory records at $5000 or any other
number has ever been contracted out to any other entity. The auditor obviously misinterpreted
_            statement that "the audit firm maintains a copy in its file for depreciation purposes".
~itimate part of the annual audit process. We have our own records of the mandated
inventory in an excel file. Since most the items in that list were purchased from Head Start
funds and none from CSBG, and the monitoring team was reviewing CSBG funds, the
inventory list was not provided to the team; nor did the team ask for the inventory list. We
would have provided the list if we were asked.

We maintain inventoiiior    items less than $5000 mainly to safeguard our assets and for
insurance purposes.             did make reference to the fact that a former terminated Inventory
Manager had a partia IUventory listing of items. That person was terminated over two years ago,
and any issues left undone by her were corrected immediately. We were able to substantiate the
items on the inventory list put up by our Ex-Inventory Manager when we started reconstructing
the inventory by searching our MIP accounting database, after her departure more than two years

Office ofInspector General - The deleted text has been redacted because it is personally
identifable information.
                                                                                        Page 2 of 3



ago. There are no deficiencies with our records or process; and there were none at the time
your team audited our Agency.


We think we are at low risk of inventory loss or theft due to the nature of our business and the
fact that all purchased equipment is used to the fullest and properly accounted for as our
Inventory records prove. Therefore, we strongly disagree with the finding of your audit team
in this report.


INABILITY TO EXPEND FUNDS

Though a large portion of Capital Area CAA’s CSBG-ARRA funds were unexpended at the time
of the site review in mid June 2010, as of September 30, 2010 less than $100,000 remained.
Since we have not reached the close out deadline and the final FSR calculations have not been
completed, we can only provide an estimate at this time. Based on our informal calculations, we
will return between $78,000 and $90,000 to HHS when the closeout is completed. Therefore, the
correct percentage of the funds to be returned is at 8.7 to 9%. The other funds were spent for job
training activities (CNA, and Office Skills/ Computer classes, micro-enterprise training and
business start up resources, etc.) and on-the-job training activities and placements of clients with
employers in the six counties served.

This is proof that we were and continue to be fully capable of managing the CSBG grant funds
entrusted to our Agency. We have been very good stewards of these federal resources.

CERTIFICATION

We are in discussions with the Florida Department of Community Affairs management team
about your finding that 2 CFR part 180 requires Capital Area CAA to complete criminal
background checks on all of its Board members, and failure to “obtain background checks for
members of its Board could result in the Agency being debarred from receiving federal funds”.
Neither DCA, nor this Agency is aware of such a requirement; and the state has never required
our Agency or any other Florida CAA to complete criminal background checks on its volunteer
Board members who have no access to the operational systems of the Agency. The Governing
Board is a policy making body responsible for ensuring staff complies with all applicable
regulations through its direct oversight and supervision of the Executive Director.

Your report correctly notes that the Agency completes criminal background checks on all
employees and extends background checks to its contractors. The Florida Department of
Community Affairs has been unable to find anything in the regulation you quoted which
specifically requires recipient agencies of CSBG to complete criminal background checks on its
volunteer Board members. DCA is continuing to research this with its legal counsel.

Finally, though your summary statement about our Agency’s capacity and ability seems to
compliment us on doing a good job, “…based on our assessment, Capital Area is financially
viable and has the capacity to manage and account for federal funds and is capable of
                                                                                       Page 3 of 3



operating the CSBG program…”, other statements in the report which question our ability
based on unsubstantiated and faulty data in your report was unfair and offensive to me and my
staff.

We are, therefore, requesting that the report be updated to present a more accurate picture of the
Agency’s excellent track record of managing these and other federal grant funds over more than
4 decades. The inaccuracies in this report makes the best case I can think of for auditors being
required to do an exit conference on site at the conclusion of their monitoring process. It is the
best way to clarify information and ensure the federal resources are protected, and at the same
time, the Agency is dealt with in an objective and fair manner. Thank you.
